No. 19-1156

IN THE

'upreme Court of tie Olittiteb Otateo
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
Petitioner,
v.
CESAR ALCARAZ-ENRIQUEZ,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,781 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 4, 2021.

( 1.
Colin Casey
gan
Wilson-Epes Printing Co., Inc.

